               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Unauthorized Contractual
                 Commitments

                       Audit Report




                                              August 6, 2012

Report Number CA-AR-12-004
                                                                          August 6, 2012

                                              Unauthorized Contractual Commitments

                                                         Report Number CA-AR-12-004




BACKGROUND:
An unauthorized contractual                   ratifying official, approved by an
commitment occurs when a                      individual who did not have sufficient
U.S. Postal Service employee who has          approval authority, or lacked sufficient
not been delegated contracting or local       documentation. We also found that
buying authority causes another party to      Postal Service personnel generally
deliver or provide goods or services, or      followed their policy on delegating
when individuals who have delegated           contracting authority to COs for actions
contracting authority exceed that             exceeding their authority. However, we
authority. The Postal Service requires        did identify one contracting action where
unauthorized contractual commitments          the CO did not receive the proper
to go through a process called                delegation and exceeded their authority
ratification, which involves after-the-fact   by more than $5.1 million. Finally, our
preparation and execution of                  benchmarking results indicated that,
appropriate contractual documents.            unlike the Postal Service, other federal
                                              agencies do not have a policy providing
Our objective was to determine whether        for a one-time delegation of authority to
the Postal Service ratified unauthorized      COs to execute actions over and above
contractual commitments in accordance         their contracting authority.
with its policy. We also reviewed
contracting actions to determine              WHAT THE OIG RECOMMENDED:
whether contracting officers (COs)            We recommended management ensure
received delegations of authority to          they review and ratify improperly ratified
exceed their contracting authority and        unauthorized contractual commitments,
benchmarked Postal Service contracting        if appropriate; reinforce current policies
authority levels and delegation of            to ensure Supply Management
authority practices with those of other       contracting personnel follow the
federal agencies.                             ratification process and documentation
                                              requirements for unauthorized
WHAT THE OIG FOUND:                           contractual commitments; and assess
Postal Service personnel did not always       and align contracting authority levels
ratify unauthorized contractual               within Supply Management.
commitments in accordance with U.S.
Postal Service policy. Of the
23 unauthorized contractual                   Link to review the entire report
commitments we reviewed, eight
(35 percent, valued at $582,649) were
either missing the approval of the
August 6, 2012

MEMORANDUM FOR:           SUSAN M. BROWNELL
                          VICE PRESIDENT, SUPPLY MANAGEMENT


                                  E-Signed by Michael A. Magalski
                                  VERIFY authenticity with e-Sign


FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Unauthorized Contractual Commitments
                          (Report Number CA-AR-12-004)

This report presents the results of our audit of Unauthorized Contractual Commitments
(Project Number 12YG002CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Stephen Masse
    Deborah Giannoni-Jackson
    Trent K. Ensley
    Paul D. McGinn
    Susan A. Witt
    Corporate Audit and Response Management
Unauthorized Contractual Commitments                                                                               CA-AR-12-004




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Ratification of Unauthorized Contractual Commitments .................................................. 2

Actions Exceeding a Contracting Officer’s Delegated Authority ...................................... 3

Benchmarking Contracting Authority Levels.................................................................... 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objectives, Scope, and Methodology .......................................................................... 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Monetary Impacts ..................................................................................... 10

Appendix C: Contracting Authority Levels ..................................................................... 11

Appendix D: Management’s Comments ........................................................................ 12
Unauthorized Contractual Commitments                                                             CA-AR-12-004




Introduction

This report presents the results of our audit of unauthorized contractual commitments
(Project Number 12YG002CA000). Our objective was to determine whether contracting
actions coded as unauthorized contractual commitments in the Contract Authoring
Management System (CAMS) were ratified in accordance with U.S. Postal Service
policy. We also reviewed a sample of contracting actions to determine whether
contracting officers (COs) received delegations of authority to exceed their contracting
authority. In addition, we benchmarked the Postal Service’s contracting authority levels
and delegation of authority practices with those of other federal agencies. This
self-initiated audit addresses operational risk. See Appendix A for additional information
about this audit.

During fiscal years (FYs) 2010 and 2011, the Postal Service had a universe of
78 unauthorized contractual commitments, valued at $1.8 million. An unauthorized
contractual commitment occurs when a Postal Service employee who has not been
delegated contracting or local buying authority causes another party to deliver or
provide goods or services. The Postal Service requires unauthorized contractual
commitments to go through a process called ratification, which involves
after-the-fact preparation and execution of appropriate contractual documents. 1

An unauthorized contractual commitment also occurs when individuals who have
delegated contracting authority exceed that authority. However, in some cases,
Postal Service employees can exceed their contracting authority. Specifically, the
Postal Service has a policy in place stating that COs may execute contracting actions
exceeding their contracting authority after receiving a written delegation of authority
specific to the action from the appropriate authority. Additionally, the policy stipulates
that written approval of the proposed contracting action from the appropriate authority
serves as a delegation of authority. 2

Conclusion

Postal Service personnel did not always ratify unauthorized contractual commitments in
accordance with Postal Service policy. Of the 23 unauthorized contractual commitments
we reviewed, eight (35 percent, valued at $582,649) were either missing the approval of
the ratifying official, approved by an individual who did not have sufficient approval
authority, or lacked sufficient documentation. We also found that Postal Service
personnel generally followed their policy on delegating contracting authority to COs for
actions exceeding their authority. However, we did identify one contracting action where
the CO did not receive the proper delegation and exceeded their authority by more than
$5.1 million. Finally, our benchmarking results indicate that other federal agencies do

1
  Management Instruction (MI) Number MI SP-G4-2006-2, Unauthorized Contractual Commitments, dated
November 30, 2006, documents the ratification process.
2
  Supplying Practices, Section 2-41.4, Actions Exceeding a Contracting Officer’s Delegated Authority.
                                                         1
Unauthorized Contractual Commitments                                                                      CA-AR-12-004



not have a policy providing for a one-time delegation of authority to COs to execute
actions over and above their contracting authority.

Ratification of Unauthorized Contractual Commitments

Postal Service personnel did not always ratify unauthorized contractual commitments in
accordance with the Postal Service’s MI on unauthorized contractual commitments.
Specifically, of the 23 unauthorized contractual commitments we reviewed, Postal
Service personnel did not ratify eight of them (35 percent, valued at $582,649) in
accordance with policy. 3 See Table 1 for a summary of the deficiencies we found.

                                    Table 1. Ratification Deficiencies

                                                           Missing           Ratifying
                                                          Approval          Official did
                                                          from the           not have
                                         Dollar           Ratifying         Sufficient               Insufficient
       Contract Number                   Value             Official         Authority              Documentation 4
    2WMISC-10-B-0025                    $126,016              X
    2CMROS-10-B-0031                      61,347                                   X
    1CTELE-10-B-0008 5                    29,506                X
    2WMISC-10-B-0084                     104,060                                   X                         X
    2DMISC-11-B-0009                     196,000                X
    2WSNOW-11-B-1053                      15,430                X
    2WMISC-11-B-1009                      27,405                                   X
    4BSCLP-11-B-0096                      22,885                X                                            X
    Total                               $582,649                5                  3                         2
Source: U.S. Postal Service Office of Inspector General (OIG) review of Postal Service records.

According to Postal Service personnel, they did not properly ratify unauthorized
contractual commitments because:

    Documentation was lost or misplaced.

    There was an oversight or mistake.

    The CO was not aware of their approval authority as it pertained to the ratification of
     unauthorized contractual commitments.



3
  The remaining 15 unauthorized contractual commitments were ratified in accordance with the Postal Service’s MI
on unauthorized contractual commitments and the ratification was sufficiently supported.
4
  The immediate manager of the employee who made the unauthorized contractual commitment did not provide the
required documentation. The CO responsible for contract number 4BSCLP-11-B-0096 said they made multiple
attempts to obtain the documentation.
5
  The Postal Service took corrective action by obtaining the approval of the ratifying official after we notified the CO
that the approval was missing.


                                                            2
Unauthorized Contractual Commitments                                                                  CA-AR-12-004



   The ratifying official waived documentation requirements for ratification; 6 therefore,
    the CO did not obtain approval from the ratifying official.

Unauthorized contractual commitments pose a risk to the Postal Service when
personnel do not follow normal purchasing procedures, as these purchases do not
include the terms and conditions necessary to protect the interests of the Postal
Service. In addition, unauthorized contractual commitments may not be an appropriate
or advantageous business arrangement for the Postal Service and warrant
management attention. The Postal Service incurred $582,649 of unsupported
questioned costs associated with eight unauthorized contractual commitments found to
be in error (see Appendix B).

Actions Exceeding a Contracting Officer’s Delegated Authority

Postal Service personnel generally followed their policy on delegating contracting
authority. Of the 18 contracting actions we reviewed, there was one instance where a
CO exceeded their authority and did not receive the proper delegation. The CO had
contracting authority of $100,000 and executed a contracting action for $5,204,783. 7
The CO said that, due to a manager’s absence, he received a written delegation of
authority, but the language in the delegation letter did not increase his competitive
contracting authority amount due to an oversight. As a result, the CO made an
unauthorized contractual commitment because the action exceeded his contracting
authority by $5,104,783 (see Appendix B). In discussions with Supply Management
personnel, they believed this was not a failure to follow the policy concerning one-time
delegations of contracting authority, but rather the result of management re-delegating
insufficient contracting authority to a subordinate.

Benchmarking Contracting Authority Levels

Our benchmarking results indicate that contracting authority levels at the other federal
agencies reviewed 8 are similar to the Postal Service’s contracting authority levels (see
Appendix C for the comparison of contracting authority levels). However, they also
indicated that COs at other agencies do not execute contracting actions that exceed
their authority. Instead, management transfers those contracting actions to COs who
have sufficient contracting authority to execute the actions. In addition, National
Aeronautics and Space Administration (NASA) and the General Services Administration
(GSA) both indicated they align contracting authority levels to correspond to the needs
of the procurement office or function. The policy at the Postal Service is for the CO to
follow a contract through to completion, regardless of the CO’s contracting authority,
with appropriate managerial approvals. Postal Service personnel said management
bases this policy on the idea that management should have the flexibility to assign work

6
  The MI on unauthorized contractual commitments does not stipulate that documentation to support ratification of an
unauthorized contractual commitment can be waived.
7
  Contract Number 2DBLDG-08-B-0020, Modification 26.
8
  We benchmarked with NASA, the GSA, the Federal Deposit Insurance Corporation (FDIC), and the Federal
Aviation Administration (FAA). NASA and the GSA are required to follow Federal Acquisition Regulations, while the
FDIC and FAA, like the Postal Service, are not.


                                                         3
Unauthorized Contractual Commitments                                                                    CA-AR-12-004



as operational conditions require and that a CO given responsibility for a contract
should be responsible and accountable for the business decisions made throughout the
purchasing process.

At the Postal Service and other federal agencies, COs achieve a certain contracting
authority level based on their training, education, and experience. The Postal Service
policy that COs may be delegated additional contracting authority to execute contracting
actions that exceed their authority creates the perception that they are bypassing
contracting authority levels and puts the Postal Service at risk. The Postal Service
would benefit from assessing and aligning contracting authority levels to ensure that
COs have adequate contracting authority to fulfill the needs and requirements of each
Category Management Center (CMC). 9 We believe the information in this report may be
useful in that assessment.

Recommendations

We recommend the vice president, Supply Management:

1. Ensure that management review and ratify unauthorized contractual commitments
   not ratified in accordance with policy, if appropriate.

2. Reinforce current policies by training and conducting periodic reviews to ensure that
   Supply Management contracting personnel follow the ratification process and
   documentation requirements for unauthorized contractual commitments.

3. Assess and align contracting authority levels to ensure that contracting officers have
   adequate contracting authority to fulfill the needs and requirements of each Category
   Management Center.

Management’s Comments

Management generally agreed with the findings, recommendations, and monetary
impact. Regarding recommendation 1, management stated personnel reviewed the
contracts in Table 1 of the report and will include the appropriate approvals in the
contract files. Management agreed to provide copies of the approvals to the OIG by
August 3. However, management stated that they executed one of the contracts
pursuant to a claim settlement, which did not require ratification. Therefore, they asked
the OIG to consider removing the contract from the monetary impact calculations.

Regarding recommendation 2, management agreed to issue a communication including
the final audit report and other guidance on the ratification process by August 2012 and
to conduct a compliance review by March 2013.

Regarding recommendation 3, management recently reviewed contracting levels and
raised the level I contracting authority from up to $100,000 to up to $250,000 and,
9
    Offices within Supply Management with designated contracting responsibility for specific products and services.


                                                            4
Unauthorized Contractual Commitments                                          CA-AR-12-004



based on that change, portfolio managers reviewed their organizational needs and
reissued delegations of authority, as they deemed appropriate. Management stated that
portfolio managers periodically perform CO assessments based on organizational
needs and CO’s knowledge, skills, and abilities. Management did not agree their policy
to delegate additional contracting authority on a one-time contractual action basis puts
the Postal Service at risk. Management stated the policy provides managers the
flexibility to assign work as operational conditions require and establishes transparency
and accountability by ensuring that a CO retains responsibility for a purchase
throughout the purchasing process. In addition, management stated the contractual
action review and approval process, mandatory for any action valued at $250,000 or
more, ensures a CO cannot take any action exceeding their delegated authority without
a thorough review and approval. Management concluded that the established controls
provide meaningful and effective oversight to ensure that contractual actions protect the
interests of and provide best value to the Postal Service.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the identified issues. Regarding recommendation 1
and the contract executed pursuant to a claim settlement, the contract was necessary
because a Postal Service employee exceeded their authority and entered into
agreements to lease copiers. As a result, there is a need for the contract to go through
the ratification process. The CO coded the contract as an unauthorized contractual
commitment in the CAMS and confirmed the accuracy of the coding during our
fieldwork. Therefore, the OIG will not adjust the monetary impact calculation.

Regarding recommendation 3, we agree with management that the contractual action
review and approval process aids in reducing risks associated with COs executing
contracting actions that exceed their authority. We believe the periodic reassessment of
contract authority levels is important and encourage the Supply Management leadership
team to closely oversee this effort. We find the actions taken and periodic reassessment
planned adequate to close the recommendation.

The OIG considers recommendations 1and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            5
Unauthorized Contractual Commitments                                                              CA-AR-12-004




                                Appendix A: Additional Information

Background

The Postal Reorganization Act 10 provides purchasing authority to the postmaster
general, who has delegated all purchasing and related policy development authority to
the vice president, Supply Management. In turn, the vice president, Supply
Management, has delegated to individuals the authority to negotiate, award, modify,
and terminate contracts and, in some cases, the authority to re-delegate these
authorities. Individuals delegated any or all of these authorities must ensure that
contracting actions, including negotiations, contract awards, modifications, and
terminations, are within the scope of their delegated authority before taking those
actions.

An unauthorized contractual commitment occurs when a Postal Service employee who
has not been delegated contracting or local buying authority causes another party to
deliver or provide goods or services. The Postal Service requires unauthorized
contractual commitments to go through a process called ratification, which involves
after-the-fact preparation and execution of appropriate contractual documents.
MI SP-G4-2006-2, Unauthorized Contractual Commitments, documents the ratification
process. Key provisions in the MI include:

    The person who makes the unauthorized contractual commitment must provide the
     following information to their immediate manager:

     o A statement describing the circumstances surrounding the particular action.

     o All invoices, statements, receipts, or other documentary evidence of the
       transaction.

    If the immediate manager concurs that the commitment should be ratified, they
     should forward the above documentation to the appropriate ratifying official. The
     immediate manager must also prepare a cover letter which addresses:

     o The accuracy and completeness of the documentation.

     o Measures taken to prevent a recurrence of similar unauthorized contractual
       commitments.

     o A complete purchase description and; if necessary, funding information.

     o A recommendation to ratify the unauthorized contractual commitment.


10
  The Postal Service was established as an independent establishment within the Executive branch of the
U.S. government under the Postal Reorganization Act of August 12, 1970 (Public Law 91–375, 84 Statute 719).


                                                       6
Unauthorized Contractual Commitments                                                                  CA-AR-12-004




    The ratifying official should review the documentation and, based on the facts, either
     approve or disapprove the ratification.

    If the ratifying official approves the ratification, the CO should prepare, sign, and
     distribute the appropriate contractual and payment documentation. 11

    If the ratifying official disapproves the ratification, the person who made the
     unauthorized contractual commitment is notified of the reason(s) for the disapproval
     and informed that they may be required to assume some or all of the liability, in
     addition to other administrative actions. A decision not to ratify an unauthorized
     contractual commitment may not result in unjust enrichment to the Postal Service.

An unauthorized contractual commitment also occurs when individuals who have
delegated contracting authority exceed that authority. However, in some cases,
Postal Service employees can exceed their contracting authority. The Postal Service
has a policy in place which states that COs may execute contracting actions exceeding
their contracting authority after receiving a written delegation of authority specific to the
action from the appropriate authority. Additionally, the policy stipulates that written
approval of the proposed contracting action from the appropriate authority will serve as
a delegation of authority.

Objectives, Scope, and Methodology

Our objective was to determine whether contracting actions coded as unauthorized
contractual commitments in CAMS were ratified in accordance with Postal Service
policy. In addition, we benchmarked Postal Service contracting authority levels and
delegation of authority practices with those of other federal agencies. 12 To accomplish
our objectives we:

    Reviewed provisions of MI SP-G4-2006-2, Unauthorized Contractual Commitments,
     dated November 30, 2006, and the Postal Service’s Supplying Principles and
     Practices related to unauthorized contractual commitments and contracting
     authority.

    Interviewed and distributed questionnaires to Supply Management personnel to
     obtain general information on unauthorized contractual commitments.

    Used the Enterprise Data Warehouse (EDW) and CAMS to identify the universe of
     contracting actions coded as unauthorized contractual commitments in FYs 2010
     and 2011. The universe consisted of 78 unauthorized contractual commitments
     valued at $1.8 million. From the universe, we judgmentally selected a sample of

11
   The CO should also make a recommendation to the appropriate ratifying official to either approve or disapprove the
ratification.
12
   As part of the survey phase, we also reviewed a sample of contracting actions to determine whether COs received
a delegation of authority to exceed their contracting authority.


                                                         7
Unauthorized Contractual Commitments                                                                CA-AR-12-004




     23 unauthorized contractual commitments valued at $1.4 million. In order to obtain a
     broad perspective, our sample selections consisted of unauthorized contractual
     commitments from seven CMCs. The sample included all 17 unauthorized
     contractual commitments that were over $25,000. We obtained documentation from
     COs and CAMS to determine whether our sample items were ratified in accordance
     with Postal Service policy.

    Obtained and reviewed the Postal Service’s CO listing, which identifies the
     contracting authority of COs.

    Used EDW and CAMS to identify those contracting actions in FYs 2010 and 2011,
     which exceeded the contracting authority of the CO. Specifically, we identified
     506 contracting actions in which COs exceeded their contracting authority by more
     than $2.31 billion. 13 Of the 506 contracting actions, we judgmentally selected a
     sample of 18 in which COs exceeded their contracting authority by $1.1 billion. Our
     sample selections included the top 10 contracting actions in terms of dollar amount
     by which the CO exceeded their contracting authority and the top 10 contracting
     actions in terms of percentage by which the CO exceeded their contracting
     authority. 14 We obtained documentation from COs and CAMS in order to determine
     whether COs had received delegations of authority to exceed their contracting
     authority.

    Benchmarked Postal Service contracting authority levels and delegation of authority
     practices with NASA, the GSA, the FDIC, and the FAA.

We conducted this performance audit from October 2011 through August 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 27, 2012, and included their
comments where appropriate.

To complete the audit, we relied on data obtained from the Postal Service’s EDW and
CAMS. We did not test the validity of controls over these systems, but reviewed
contracts and supporting documentation, which validated the data we relied on. We
determined that the data were sufficiently reliable for the purposes of this report.




13
   On December 12, 2011, the Postal Service increased the contracting authority of a Level I CO from $100,000 to
$250,000. If the $250,000 threshold was applied to FYs 2010 and 2011 contracting actions, COs would have
executed 308 contracting actions and exceeded their contracting authority by $2.27 billion.
14
   There were two contracting actions that met both criteria.


                                                         8
Unauthorized Contractual Commitments                                            CA-AR-12-004



Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objectives of this audit
during the last 3 years.




                                             9
Unauthorized Contractual Commitments                                                                    CA-AR-12-004



                                     Appendix B: Monetary Impacts

            Recommendation                      Impact Category                              Amount
                  1                      Unsupported Questioned Costs 15                    $5,687,432

The $5,687,432 includes $582,649, which represents the total value of the eight
unauthorized contractual commitments that the OIG found were not ratified in
accordance with Postal Service policy. It also includes $5,104,783, which represents the
difference between the amount of a contracting action ($5,204,783) and the COs
contracting authority ($100,000) for the one instance where the OIG found the CO had
exceeded their authority and did not receive the proper delegation.




15
   Defined as “a failure to follow policy or required procedures.” The amounts are not necessarily actual losses
incurred by the Postal Service.




                                                          10
Unauthorized Contractual Commitments                                                                     CA-AR-12-004



                             Appendix C: Contracting Authority Levels

                                              U.S. Postal Service

                          CO Level                                Contracting Authority
         Level I                                          Up to $100,000 16
         Level II                                         Up to $1,000,000
         Level III                                        Up to $10,000,000
         Level IV                                         Unlimited

                                                        NASA

                         CO Level                                 Contracting Authority
                                                          Up to $100,000 noncommercial
        Level I
                                                          Up to $1,000,000 commercial
        Level II                                          Up to $10,000,000
        Level III                                         Unlimited

                                                         GSA

                         CO Level                                 Contracting Authority
                                                          Up to $150,000 noncommercial
        Level I/Simplified Acquisition
                                                          Up to $6,500,000 commercial
        Level II/Intermediate                             Up to $10,000,000
        Level III/Senior                                  Unlimited

                                                         FDIC

                         CO Level                                 Contracting Authority
        Level I                                           Up to $100,000
        Level II                                          Up to $1,000,000
        Level III                                         Up to $5,000,000
        Level IV                                          Up to $10,000,000
        Level V                                           Unlimited

                                                         FAA

                         CO Level                                 Contracting Authority
        Level I                                           Up to $500,000
        Level II                                          Up to $10,000,000
        Level III                                         Unlimited



16
  On December 12, 2011, the Postal Service increased the maximum contracting authority for a Level I CO to
$250,000. The increase in contracting authority is consistent with the Postal Service’s simplified acquisition threshold.


                                                           11
Unauthorized Contractual Commitments                         CA-AR-12-004



                         Appendix D: Management’s Comments




                                        12
Unauthorized Contractual Commitments        CA-AR-12-004




                                       13
